  DEPARTMENT OF HOMELAND SECURITY
   aAudit

            Office of Inspector General


             Audit of Screening Trucks Carrying
              Canadian Municipal Solid Waste
                    (Unclassified Summary)




                    Office of Audits
                                       Office of Inspector General



OIG-06-21                                   January 2006
                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibility to promote economy, effectiveness, and efficiency within the
department.

This report presents a public summary of our limited official use report assessing the Bureau of
Customs and Border Protection’s process for screening trucks carrying Canadian municipal solid
waste. It is based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendation contained in this report has been developed according to the best knowledge
available to our office, and has been discussed in draft with those responsible for implementation. It
is our hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
UNCLASSIFIED SUMMARY
                            The greater Toronto, Canada area has been shipping municipal solid waste
                            (MSW) to Michigan landfills for disposal since 1998. During calendar year
                            2004, Michigan landfills received approximately 100,000 truckloads of
                            Canadian MSW, an 8 percent increase over calendar year 2003. Another
                            10,000 shipments of MSW enter the U.S. through 9 other ports of entry (POE)
                            that accept Canadian and Mexican MSW. Over the past two years, trucks
                            carrying Canadian MSW were found to contain medical waste, illegal drugs,
                            and illegal currency. At the request of Senators Levin and Stabenow and
                            Representative Dingell, our office reviewed the effectiveness of the Bureau of
                            Customs and Border Protection’s (CBP) screening of trucks carrying
                            Canadian MSW.

                            CBP has the authority1 to search all persons, baggage, and merchandise
                            arriving in the U.S. to detect and seize smuggled instruments of terror, and
                            other contraband, such as illegal drugs. CBP carries out its responsibility by
                            using screening equipment and physical inspections. For example, every
                            passenger vehicle and truck entering the U.S. at the Detroit and Port Huron
                            POE pass through a radiation portal monitor (RPM), and selected trucks
                            receive a Vehicle and Cargo Inspection System (VACIS)2 screening.

                            Our audit work was conducted at CBP Headquarters in Washington, DC, and
                            at the ports of Detroit and Port Huron, Michigan. We evaluated CBP entry
                            and screening procedures and observed CBP personnel implementing those
                            procedures at Michigan landfills and at the ports of Detroit and Port Huron.
                            We also gathered and analyzed information regarding techniques for
                            screening MSW from other northern and southern border ports. In addition,
                            we made site visits to three MSW transfer stations in the greater Toronto area.

                            Improvements are needed in the inspection process. For example, the ports
                            vary in how they select and inspect cargo and conduct their VACIS
                            examinations. In addition, there is no Centralized Examination Station in
                            Michigan.

                            We are recommending that the Commissioner of CBP conduct a risk analysis
                            and develop minimum requirements for selecting and inspecting trucks
                            carrying Canadian MSW.




1
    19 USC § 1467; 19 CFR § 162.6.
2
    A VACIS machine uses gamma rays to produce a visual presentation of a truck’s contents. The image is similar to an
     x-ray.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
